Case: 18-1586

Document: 00117577706

Page: 1

Date Filed: 04/15/2020

Entry ID: 6332182

Appendix A

United States Court of Appeals
For the First Circuit
No. 18-1586
UNITED STATES,
Appellee,
v.
VICTOR SANTANA-GONZALEZ, a/k/a Run Run, a/k/a Pequeno,
Defendant - Appellant.
Before
Thompson, Kayatta and Barron,
Circuit Judges.
JUDGMENT
Entered: April 15, 2020
Victor Santana-Gonzalez pleaded guilty to a racketeering conspiracy charge, see 18 U.S.C.
ยง 1962(d), and was sentenced to 264 months in prison, a term below the guideline sentencing range
and within the range stipulated in the Fed. R. Crim. P. 11(c)(1)(C) plea agreement. Although the
plea agreement also contained a waiver of the right to appeal, Santana appealed, arguing that the
waiver does not bar review of his claim that he was not afforded an adequate opportunity to
allocute as required by Fed. R. Crim P. 32(i)(4)(A)(ii). The government argues that the claim is
within the scope of the waiver and maintains that the waiver is valid and enforceable.
The plea agreement's appeal waiver bars an appeal of the judgment or sentence so long as
Santana is "sentenced in accordance with the terms and conditions set forth in the Sentencing
Recommendation provisions" of the agreement. The Sentence Recommendation provisions
allowed Santana to recommend a sentence of no less than 216 months' imprisonment and the
government to recommend a sentence of up to 312 months' imprisonment, and stated that any
recommendation above or below the stipulated range of 216-312 months would constitute a
material breach of the plea agreement. Santana argues that he was not sentenced in accordance
with the Sentence Recommendation provisions because the denial of his right to allocute deprived
him of an opportunity to personally request a sentence of 216 months and offer mitigating
information. But the Recommendation provisions do not say anything specific about the right of
allocution or compliance with the Federal Rules of Criminal Procedure and, although Santana did

Case: 18-1586

Document: 00117577706

Page: 2

Date Filed: 04/15/2020

Entry ID: 6332182

not himself articulate a request for a 216-month sentence, his counsel did so on his behalf, and
presented mitigating arguments both in a sentencing memorandum and at the sentencing hearing.
Although Santana was not prevented from recommending a sentence at the low end of the
stipulated range and received a sentence within that range, he nevertheless argues that his claim of
error falls outside the scope of the waiver because he entered the plea agreement with the
understanding that he would be sentenced in accordance with the Federal Rules of Criminal
Procedure and under the belief that the sentencing process would protect his right to allocution.
We need not decide whether a claim of error regarding allocution falls within the scope of
the type of appeal waiver at issue here because even if the waiver does not apply, Santana cannot
make the showing required to obtain relief. Santana concedes that he did not preserve the claim of
error for review and that it is therefore reviewable, if at all, only for plain error. See, e.g.. United
States v. Daoust. 888 F.3d 571, 575 (1st Cir. 2018). To meet that standard, Santana must
demonstrate "'(1) that an error occurred (2) which was clear or obvious and which not only (3)
affected the defendant's substantial rights, but also (4) seriously impaired the fairness, integrity, or
public reputation of judicial proceedings."' Id. (quoting United States v. Duarte. 246 F.3d 56, 60
(1st Cir. 2001)).
While Santana correctly notes that the failure to provide an opportunity to allocute is not
harmless error and has been held to meet the plain error standard, See United States v. GonzalezMelendez. 594 F.3d 28, 38 (1st Cir. 2010) (denial of right to allocution is not harmless error,
requires resentencing): United States v. Gonzalez-Huerta, 403 F.3d 727, 736, 739 (10th Cir. 2005)
(en banc) (denial of right to allocute is an error that satisfies fourth prong of plain error standard,
as it seriously affects the fairness, integrity, or public reputation of judicial proceedings), that
standard is not met in this case because petitioner's allocution rights were not violated. Rule
32(i)(4)(A)(ii) requires that, before imposing sentence, the sentencing court must "address the
defendant personally in order to permit the defendant to speak or present any information to
mitigate the sentence^]" The Rule is satisfied if "the court, the prosecutor, and the defendant. . .
interact in a manner that shows clearly and convincingly that the defendant knew he had a right to
speak on any subject of his choosing prior to the imposition of sentence." United States v. De Alba
Pagan. 33 F.3d 125, 130 (1st Cir. 1994); accord Gonzalez-Melendez. 594 F.3d at 37-38.
Here, the district court addressed Santana directly and asked if there was anything he would
like to say or have the court consider before imposing sentence. This invitation was sufficient to
inform Santana of his right to speak broadly on any subject of his choosing. See De Alba Pagan.
33 F.3d at 129. Instead of offering mitigating information and arguing for a 216-month sentence,
Santana inquired about the possibility of obtaining further evidence to support his argument that
his medical condition warranted leniency, and then was interrupted by defense counsel. A
discussion about existing evidence concerning Santana's condition ensued, and the court then
heard from the government. Before proceeding to impose sentence, the court asked if "either side"
had anything else to add. Santana said nothing. Santana argues that the court's initial open-ended
invitation failed to provide an adequate opportunity for allocution because Santana was interrupted
by counsel and the court did not renew its invitation after defense counsel finished speaking;
although the court asked if either side had anything to add before imposing sentence, it did not
specifically address Santana. But we have held that the Federal Rules "do not require a sentencing

Case: 18-1586

Document: 00117577706

Page: 3

Date Filed: 04/15/2020

Entry ID: 6332182

court to remind a defendant of the right to allocute so long as the court clearly notifies the defendant
once," United States v. Burgos-Anduiar, 275 F.3d 23, 28-29 (1st Cir. 2001), and other courts have
found that the right of allocution was satisfied based on similar facts. See United States v. Archer.
70F.3d 1149,1151-52 (10th Cir. 1995) (holding right to allocution not denied when court included
defendant in initial invitation to speak but did not renew invitation after defense counsel finished
speaking); United States v. Washington. 44 F.3d 1271, 1276-77 (5th Cir. 1995) (holding that
failure to renew a previous offer of allocution does not violate Rule 32); United States v. Franklin.
902 F.2d 501,506-07 (7th Cir. 1990) (holding right to allocution not denied when court addressed
defendant by name and asked him if he had anything to say, but defense counsel interrupted and
court did not renew invitation after counsel finished speaking). Neither Santana nor his counsel
indicated that Santana had anything further to say, and Santana does not now identify any
additional facts or arguments in mitigation that were not presented to and considered by the court.
Affirmed. See 1st Cir. R. 27.0(c).
By the Court:
Maria R. Hamilton, Clerk

cc:
Victor Santana-Gonzalez
Jenifer Yois Hernandez-Vega
Victor O. Acevedo-Hernandez
Mariana E. Bauza Almonte
Marie Christine Amy
Antonio Perez-Alonso

